Audit of USAID/Iraq’s Infrastructure
Reconstruction and Rehabilitation Program
Report No. E-266-04-002-P
June 3, 2004




                 Baghdad, Iraq
June 3, 2004

MEMORANDUM
FOR:           Director, USAID/Iraq, James E. Stephenson

FROM:          Acting Director, Audit Operations in Iraq, Catherine Trujillo /s/

SUBJECT: Audit of USAID/Iraq’s Infrastructure                 Reconstruction       and
Rehabilitation Program (Report No. E-266-04-002-P)

This memorandum transmits our final audit report on the subject audit. In
finalizing the report, we considered your comments on our draft report and have
included them as Appendix II.

This report included four recommendations to strengthen USAID/Iraq’s
management controls related to the infrastructure reconstruction and rehabilitation
activities. In your written comments, you concurred with these recommendations
and identified actions taken to address each concern. We reviewed the supporting
documentation provided and consider the four recommendations to have received
a management decision and final action taken.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                    1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                          5
Contents
           Background                                                                  6

           Audit Objective                                                             7

           Audit Findings                                                              7

                  Are USAID/Iraq’s infrastructure reconstruction and rehabilitation
                  activities performed by Bechtel National, Inc. on schedule to
                  achieve the planned outputs?                                         7

                          Environmental Reviews Not Prepared                           9

                          Job Order Specific Plans Not Prepared                       11

                          Charges in Excess of Job Order Approved Amounts             12

                          Completed Job Orders Not Closed                             13

           Management Comments and Our Evaluation                                     14

           Appendix I – Scope and Methodology                                         17

           Appendix II – Management Comments                                          19

           Appendix III – Table of Infrastructure Activities                          21

           Appendix IV – Status of Infrastructure Activities as of April 15, 2004     23




                                                                                           3
(This page intentionally left blank)




                                       4
Summary of   USAID awarded a contract to Bechtel National, Inc. (BNI) on April 17, 2003, in
Results      the amount of $680 million to carry out USAID’s reconstruction and
             rehabilitation of Iraq’s infrastructure. The contract was subsequently increased to
             approximately $1.03 billion. (See page 6.)

             USAID/Iraq’s infrastructure reconstruction and rehabilitation activities performed
             by BNI are on schedule to achieve the planned outputs except for 11 percent of the
             activities which were completed late or are behind schedule. USAID/Iraq has
             worked diligently to address performance challenges. Mission officials hold
             weekly meetings with BNI officials to discuss and resolve performance problems.
             In some instances, double shifts have been authorized to meet the scheduled
             completion dates in the power sector projects. Because of these aggressive
             actions to address scheduling issues, we are not making any recommendations.
             (See pages 7-8.)

             The Mission’s management controls related to the infrastructure reconstruction
             and rehabilitation projects are in need of improvement. Review of the projects
             identified that: 1) BNI did not perform adequate environmental reviews prior to
             the start of construction for 60 of the 72 projects, and 2) job order1 specific plans
             (JOSPs) required within ten days after the issuance of a job order were not
             submitted as required. (See pages 9 – 11.) USAID/Iraq has not verified if proper
             credits were made to adjust for BNI excess on two invoices, and has not promptly
             closed out completed job orders as required. (See pages 12-13.)

             We recommended that USAID/Iraq:

                   •    Establish procedures ensuring that Bechtel National, Inc. submit an
                        environmental review, and where applicable, an environmental
                        assessment, with each request for the issuance of a job order, or
                        that USAID/Iraq obtain a formal written determination exempting
                        the program activities from USAID’s environmental procedures;
                        and obtain an acceptable environmental review for the existing job
                        orders for which one is required. (See page 11.)
                   •    Develop and document procedures to ensure that a job order
                        specific plan is submitted and approved, for each job order
                        requiring one, prior to the commencement of construction, and
                        obtain an acceptable job order specific plan for the eight job orders
                        for which a job order specific plan was not prepared. (See page
                        12.)
             1
                  USAID issued job orders for infrastructure repairs, rehabilitation, and/or upgrading activities,
                 and any related procurement of equipment, supplies and materials. Job orders are required to be
                 in writing, signed by the Contracting Officer or a duly warranted Administrative Contracting
                 Officer with the technical concurrence of the Cognizant Technical Officer and authorize the
                 Contractor to proceed with implementing the activity.


                                                                                                                5
                  •    Develop documented procedures which address the handling of
                       charges in excess of the job order approved amount. (See page 13.)
                  •    Complete and implement job order closeout procedures to close
                       out job orders in a timely manner. (See page 13.)

             In responding to this report USAID/Iraq agreed with the recommendations and
             took corrective actions to address them. Appendix II contains USAID/Iraq’s
             comments in their entirety. (See page 19.)



Background   On May 2, 2003, USAID began directing more than $1.5 billion in assistance to
             Iraq. USAID reconstruction and humanitarian assistance is delivered through 45
             grants and contracts to U.S. businesses and non-governmental organizations,
             supporting programs in power, water, sanitation, local governance, health, education
             and nutrition. USAID/Iraq coordinates all programs with the Coalition Provisional
             Authority. Total USAID assistance to Iraq in fiscal years 2003 and 2004 was $3.2
             billion as of March 17, 2004.

             USAID awarded a $680 million contract to Bechtel National, Inc. (BNI) on April
             17, 2003, for the repair, rehabilitation or reconstruction of vital elements of Iraq's
             infrastructure. This included the assessment and repair of power plants,
             municipal water systems, sewage treatment plants, the Umm Qasr seaport,
             government and public facilities (schools, clinics, and fire stations),
             telecommunications facilities, and surface transportation components (bridges and
             rail). Appendix III contains a breakdown of infrastructure activities by sector and
             amount. USAID modified the contract on September 30, 2003, increasing the
             funding to $1,029,833,259.2

             BNI has faced a number of challenges working in Iraq, the foremost of which is
             the lack of a secure environment. BNI’s performance has been hampered at a
             number of sites either by attacks on BNI personnel or by looting and acts of
             sabotage. Additionally, BNI has awarded a number of subcontracts to Iraqi
             companies, and this has resulted in some delays as many Iraqi contractors are not
             accustomed to operating at international standards.




             2
                 USAID awarded BNI a second contract on January 4, 2004, in the amount of $1.8 billion to
                 continue infrastructure projects. This second contract is not the subject of this audit.


                                                                                                            6
                    Photograph of the construction of the platform for one of the electric generation plants.
                    (Photograph was taken on March 9, 2004.)



Audit Objective   USAID Office of Inspector General has developed an audit strategy to address
                  performance and financial issues being faced by USAID during its
                  implementation of reconstruction efforts in Iraq. The OIG conducted this audit to
                  answer the following audit objective:

                  Are USAID/Iraq’s infrastructure reconstruction and rehabilitation activities
                  performed by Bechtel National, Inc. on schedule to achieve the planned
                  outputs?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.



Audit Findings    Are USAID/Iraq’s infrastructure reconstruction and rehabilitation activities
                  performed by Bechtel National, Inc. on schedule to achieve the planned
                  outputs?

                  USAID/Iraq’s infrastructure reconstruction and rehabilitation activities performed
                  by BNI are on schedule to achieve the planned outputs except for 11 percent of the
                  activities which were completed late or are behind schedule.




                                                                                                            7
Under the contract with BNI, USAID/Iraq issued job orders to specify the work to
be performed. As of January 31, 2004, USAID/Iraq issued 72 job orders totaling
$686 million. USAID includes in each job order the approved rough order of
magnitude amount3, a completion date, and the scope of work. USAID has
changed the job order scope of work, completion dates, and rough order of
magnitude estimates by issuing amendments to the job orders.

Of the 72 projects reviewed, BNI has completed or is scheduled to complete 64
projects by the scheduled due date. As of April 15, 2004, BNI did not or will not
complete the remaining 8 projects by the scheduled completion date. These 8
projects, totaling $91 million, represent 11 percent of the total number of projects.

Projects that were completed as of April 15, 2004, included a dredging project, a
bridge bypass project, satellite and wireless telecommunications system projects,
and a water pumping station project. Major projects that are on schedule to meet
the established completion dates include a sewage treatment plant project, a
project to restore water filtration plants, and projects for a generating plant and
combustion turbines. (Appendix IV starting on page 23 contain a list of the 72
projects completed or underway.)

BNI was behind schedule on 8 projects for the following reasons:

    •    Three integrated projects,4 with other entities working on the projects have
         caused delays beyond BNI’s control.
    •    One project experienced disagreements with the Iraqi ministry over the
         location of placement of a piece of equipment.
    •    Two projects experienced security problems.
    •    The scope had to be expanded on one project after work began, and the
         completion date had not been extended.
    •    One project had to re-bid the subcontract work which delayed the project.

USAID/Iraq has worked diligently to address performance challenges. Mission
officials hold weekly meetings with BNI officials to discuss and resolve
performance problems. In some instances, double shifts have been authorized to
meet the scheduled completion dates in the power sector projects.

We are not making a recommendation because USAID/Iraq is actively monitoring
the progress of the work, and it is addressing scheduling issues as they arise.



3
  The approved amount is based on a detailed estimate that is referred to in the job orders as the
  rough order of magnitude. The total of the estimated costs is referred to as the ceiling price.
  Any change to the rough order of magnitude or ceiling price requires an amendment to the job
  order signed by the contracting officer, and it is analogous to a ceiling price in a contract.
4
  Projects executed in conjunction with an Iraqi ministry or the Coalition Provisional Authority are
  referred to as integrated projects. The work is divided between BNI and the other entity.


                                                                                                  8
    Photograph of the cleaning of one of the water filtration treatment units. (Photograph
    was taken on February 23, 2004.)

During our review of the Mission’s management controls related to the audit
objective we identified the following areas for improvement in the Mission’s
controls related to the infrastructure reconstruction and rehabilitation activities.

Environmental Reviews Not Prepared

USAID’s environmental procedures5 require that an environmental review be
prepared for each activity before the activity begins, unless the activity is
exempted. The Assistant Administrator responsible for the program, project or
activity can issue a written determination authorizing an exemption for emergency
circumstances and circumstances involving exceptional foreign policy
sensitivities. The Bureau did not seek an exemption,6 and therefore the Mission
was required to comply with the environmental procedures.

According to the Code of Federal Regulations, 22 CFR 216.3, the classes of
actions determined generally to have a significant effect on the environment
include, power plants, potable water and sewerage, penetration road building or
road improvement projects, each of which were activities under USAID/Iraq’s
reconstruction program. Under these activities, an environmental assessment or
environmental impact statement, as appropriate, is required.

5
 . USAID’s environmental procedures are codified at Part 216 of Title 22 of the Code of Federal
   Regulations, 22 CFR 216.
6
   Mission officials stated USAID considered issuing an exemption for the infrastructure
   reconstruction and rehabilitation activities, but it decided not to issue one because it wanted to
   incorporate environmental concerns into the projects.


                                                                                                   9
           The purpose of the environmental assessment is to provide agency
           and host country decision makers with a full discussion of
           significant environmental effects of a proposed action. It includes
           alternatives which would avoid or minimize adverse effects or
           enhance the quality of the environment so that the expected
           benefits of development objectives can be weighed against any
           adverse impacts upon the human environment or any irreversible
           or irretrievable commitment of resources.

USAID/Iraq issued job orders identifying the work BNI was to perform.
Environmental reviews were required on 60 of the 72 job orders outstanding as of
January 31, 2004. Mission officials stated, however, that it was not possible to
approve environmental reviews for individual projects until after the approval of
USAID/Iraq’s Initial Environmental Examination (IEE). An IEE is the first
review of the reasonably foreseeable effects of a proposed action on the
environment. Its function is to provide a brief statement of the factual basis for an
agency decision whether a proposed action is a major action that could
significantly affect the environment. The decision will be the basis of whether an
environmental assessment or an environmental impact statement would be
required.

The IEE was not approved until February 4, 2004, and by then work had begun on
most of the 72 projects with several projects substantially completed.
USAID/Iraq and BNI did not agree upon an acceptable format and content for an
environmental review checklist until late 2003.7 Mission officials stated that
waiting until the adoption of an IEE and environmental review of the activities
would have delayed humanitarian assistance and that there was a strong push for
USAID to “have an impact” on Iraq’s infrastructure.

By not performing an adequate environmental review prior to construction
mitigating actions could not be incorporated into the project design where
potential negative environmental impacts were identified.

For the Mission to comply with USAID environmental procedures we recommend
the Mission take the following actions:




7
    Subsequent to this agreement, BNI submitted 51 environmental review checklists from February
    1 through March 13, 2004, and 47 had been accepted as adequate as of March 13, 2004.


                                                                                             10
         Recommendation No. 1: We recommend that USAID/Iraq:

         1.1 establish procedures ensuring that Bechtel National, Inc.
             submit an environmental review, and where applicable, an
             environmental assessment, with each request for the
             issuance of a job order, or that USAID/Iraq obtain a
             formal written determination exempting the program
             activities from USAID’s environmental procedures, and

         1.2 obtain an acceptable environmental review for the existing
             job orders for which one is required.


Job Order Specific Plans Not Prepared

The contract required BNI to submit a job order specific plan (JOSP) within ten
days after the issuance of a job order. Out of the total 60 job orders requiring a
JOSP, 52 were not submitted within the timeframes stipulated in the contract and
8 had not yet been submitted. The primary reason that JOSPs were not prepared
as required is attributable to Mission priorities during the period when the job
orders were started and lack of sufficient staffing available to prepare JOSPs as
required. Failure to submit a JOSP creates the potential that a skipped step, such
as a test not being conducted, will go unnoticed.

The JOSP is a mean to assist in the achievement of quality control for each job; in
addition to identifying key personnel, it establishes procedures, controls,
instructions, tests, records, and forms related to the project.

The primary reason why BNI did not submit JOSPs within ten days is because
from May to October 2003 USAID/Iraq and BNI concentrated their efforts on
having an immediate impact on the infrastructure of Iraq. Additionally, the U.S.
Army Corps of Engineers (USACE)8 stated that it was not realistic to require a
JOSP within ten days after issuance of a job order, especially on large, complex
projects, because there would not have been a construction plan in place at that
time. According to USACE representatives, a quality control plan cannot be
prepared until there is a construction plan.

Even though JOSPs were not prepared as required, the USACE stated that it
obtained copies of Attachment D to the subcontracts prior to the start of

8
 Under a participating agency service agreement the USACE are technical advisors to the
USAID/Iraq. USACE is responsible for monitoring reconstruction contractor performance and
ensuring the latter’s completion of projects according to the specifications in the individual Job
Orders, and international standards. Additionally the USACE is responsible for monitoring the
Quality Control, Quality Assurance, Schedule, Performance Monitoring, Safety, and
Environmental Issues.


                                                                                                     11
construction. Attachment D contains all the quality specifications for the work to
be done by the subcontractor and is an attachment to the subcontracts. This
Attachment D, however, does not specify the quality control steps that apply to
BNI. A JOSP is needed to specify the quality control steps that apply to BNI.
Failure to submit a JOSP as required by the contract creates the potential that a
skipped step, such as a test not being conducted, will go unnoticed.

Beginning in late October 2003, the Mission pressed BNI for JOSPs for those
projects that required one.9 Substantial progress has been made as evidenced by
the 55 JOSPs submitted from November 12, 2003 through March 13, 2004, 48 of
which had been accepted by the USACE as adequate as of March 13.10

To address the problem of JOSPs not being prepared as required, we are making
the following recommendations:

        Recommendation No. 2: We recommend that USAID/Iraq:

        2.1 develop and document procedures to ensure that a job
            order specific plan is submitted and approved, for each
            job order requiring one, prior to the commencement of
            construction, and

        2.2 obtain an acceptable job order specific plan for the eight
            job orders for which a job order specific plan was not
            prepared.

Charges in Excess of Job
Order Approved Amounts

USAID has not properly accounted for overpayments it made on three job orders
billed by BNI. The reason this occurred is because the Mission did not have
procedures on how to process and verify adjustments for overpayments paid to
BNI. The absence of detailed procedures regarding processing charges in excess
of the approved amount compromises the Mission’s financial controls and
oversight of BNI’s activities. This is especially true in the operating environment
in Iraq where there are frequent changes of personnel.

The Mission’s review of BNI invoices in 2004 identified charges on two invoices
that exceeded the approved amounts of three job orders by a total of $145,570.
USAID paid the charges in excess of the approved amounts; however, at the time
it approved the payment of these invoices, the Mission requested that BNI make


9
   Some job orders are general procurement actions for technical assistance or miscellaneous parts
  and supplies and therefore do not require JOSPs.
10
    Fifty JOSPs had been submitted previously, all but three in September and October; however,
  the USACE determined that they were not adequate.


                                                                                               12
adjustments and credit future invoices for the amount of the excess charges. BNI
made the appropriate adjustments as of the end of March 2004.

To expand upon the Mission’s existing invoice review procedures we are making
the following recommendation:

       Recommendation No. 3: We recommend that USAID/Iraq
       develop documented procedures which address the handling of
       charges in excess of the job order approved amount.

Completed Job Orders Not Closed

USAID’s Cognizant Technical Officer Guide Book (November 1998) states that
action to close out a contract should begin within 90 days following the
completion of the work. USAID’s Contract Information Bulletin 90-12 reiterates
the necessity to close out acquisition instruments in a timely and comprehensive
fashion. Because USAID/Iraq lacked procedures to address a close-out process,
USAID/Iraq had not conducted timely close outs on 8 out the 14 projects
completed and accepted. As a result, the Mission did not complete its
management and oversight responsibilities for the work performed under the job
order.

The job orders issued to BNI are a type of acquisition instruments and have the
attributes of, and are used in much the same way as contracts. For example, job
orders contain the essential elements of a contract; they define the scope of work,
the rough order of magnitude, and the completion date. Job orders are also signed
by both BNI and USAID/Iraq. As in the case of contracts, action to close out a
job order should begin within 90 days following completion.

As of March 18, 2004, the Mission had accepted 14 projects as being complete.
Out of the total 14 projects, 8 of the projects had been completed for 90 days or
longer, including two that had been completed in excess of 200 days; however the
Mission had not yet closed out these 8 job orders.

The reason completed job orders were not closed out in a timely manner is
because no procedures existed, and there was no target date for closing out job
orders. As a result, the Mission did not complete its management and oversight
responsibilities for the work performed under the job order.

To ensure that job orders are closed on a timely basis, we are making the
following recommendation:

       Recommendation No. 4: We recommend that USAID/Iraq
       complete and implement job order closeout procedures to close
       out job orders in a timely manner.




                                                                                13
Management       In its response to our draft report, USAID/Iraq concurred with our
                 recommendations and described actions taken to address each. We believe the
Comments and
                 actions taken by the Mission should strengthen management controls related to
Our Evaluation   the infrastructure reconstruction and rehabilitation activities.

                 To address Recommendation No. 1.1 the Mission stated in its comments that
                 USAID and the U.S. Army Corps of Engineers (USACE) implemented
                 procedures to notify the USACE environmental engineer when a draft job order
                 was requested so that planning for an environmental review could begin before
                 the official job order was approved. The Standard Operating Procedures titled
                 Environmental Reviews and Assessments-Submission and Approval defines
                 USACE responsibilities and the process for monitoring, tracking and reporting
                 environmental review requirements.

                 To address Recommendation No. 1.2 the Mission provided an environmental
                 checklist tracking sheet. The checklist is maintained by the USACE and reports
                 for each job order the environmental checklist receipt and acceptance date. The
                 report indicates that checklists have been accepted for all job orders.

                 USAID/Iraq has taken appropriate steps to develop procedures and provided
                 adequate documentation to demonstrate that it received environment reviews for
                 the job orders that were identified with not having one.

                 To address Recommendation No. 2.1 the Mission provided a description of
                 procedures developed by USAID, USACE and in consultation with Bechtel, to
                 ensure that job order specific plans (JOSPs) are submitted and approved. These
                 procedures define the process and the responsibilities for submitting, distributing,
                 modifying and approving a JOSP.

                 To address Recommendation No. 2.2 the Mission provided a JOSP tracking
                 worksheet maintained by the USACE reporting the acceptance dates for all
                 required JOSPs. The tracking worksheet now includes acceptance dates for the 8
                 JOSPs previously identified as having not been received.

                 USAID/Iraq has taken the appropriate steps to improve the management controls
                 over the JOSP process.

                 To address Recommendation No. 3 the Mission provided a standard operating
                 procedure developed by USAID in collaboration with the USACE. The
                 procedure states that sector managers will perform an in-depth analysis after
                 USAID submits payment to Bechtel. If USAID identifies cost discrepancies in
                 excess of $5,000 of the approved job order amount, it will be noted in the
                 subsequent recommendation letter and BNI will be informed by USAID/Iraq and



                                                                                                  14
USACE to make an adjustment to either increase the amount of the rough order of
magnitude for the job order or credit future invoices for the amount of the excess
cost. However if the cost discrepancy is less than $5,000, it will be noted in the
subsequent recommendation letter. No adjustments will be necessary until the job
order is closed, when the rough order of magnitude will be increased in line with
the actual cost.

This proposed procedure addresses the recommendation for handling charges in
excess of the job order approved amounts. The dollar limitation of $5,000 is
considered within an acceptable amount to control the billings from exceeding the
approved job order amounts.

To address Recommendation No. 4 the Mission provided a copy of Bechtel’s
March 12, 2004 Job Order Close-Out procedure. The procedure defines the
process for USAID final inspection and acceptance of job order performance
requirements. The procedure applies to job orders issued under USAID’s contract
for the Iraq Infrastructure Reconstruction Project.

USAID/Iraq has taken appropriate steps to improve the management controls over
the job order close out process.

Based on the information provided we consider that USAID/Iraq has reached
management decision and reached final action on Recommendation Nos. 1.1, 1.2,
2.1, 2.2, 3 and 4.

Management also suggested editorial changes to the draft which were
incorporated into the final report. Management comments are included in their
entirety in Appendix II. (See page 19.)




                                                                               15
(This page intentionally left blank)




                                       16
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Inspector General Audit Operations Team in Iraq conducted this audit in
              accordance with generally accepted government auditing standards. The purpose
              of the audit was to determine if USAID/Iraq’s infrastructure reconstruction and
              rehabilitation activities performed by Bechtel National, Inc. (BNI) are on schedule to
              achieve their planned outputs.

              The audit covered the Mission’s infrastructure activities for the period from April
              16, 2003, to April 15, 2004, funded under USAID’s contract number EEE-C-00-
              00018-00 with BNI. USAID had obligated approximately $1.03 billion for
              infrastructure activities in Iraq. The audit was conducted at USAID/Iraq’s office
              and at BNI’s office in Baghdad from February 1 to April 15, 2004. We examined
              all 72 job orders that were in process at April 15, 2004 totaling $686 million.

              During our audit fieldwork, we obtained an understanding of and assessed the
              Mission’s controls related to the management of infrastructure activities being
              implemented by BNI. We reviewed the Mission’s self-assessment report
              prepared in compliance with the Federal Managers Financial Integrity Act
              (FMFIA) for the fiscal year 2003 for those management controls relative to the
              audit objective. Furthermore, we requested and received a management
              representation letter from USAID/Iraq.

              This audit did not include any activities funded under the second BNI contract
              awarded on January 4, 2004, in the amount of $1.8 billion.

              Methodology

              The contract with BNI does not include specific deliverables. The Mission issues
              job orders to identify the specific work to be performed and the product to be
              delivered. To answer the audit objective we performed the following procedures
              to review the open job orders as of April 15, 2004:

                 •    Compared the scheduled completion date with the actual or anticipated
                      completion date.
                 •    Analyzed in greater detail the scheduled completion date for 25 projects,
                      selected judgmentally, totaling approximately $590 million. These 25
                      projects were examined for compliance with selected contract
                      requirements; for example, a job order specific plan, environmental
                      review, security plan, and site visits.
                 •    Visited the site locations in the various cities in Iraq to visually inspect the
                      work and verify the progress of the project being performed for 16 job




                                                                                                   17
       orders amounting to approximately $395 million (58 percent of the
       amount of all job orders).
   •   Reviewed the contract, job orders, amendments to job orders, work plans,
       trip reports, monthly progress reports, financial reports and the U.S. Army
       Corps of Engineers database.
   •   Examined BNI invoices to obtain an understanding of the review and
       payment process.
Furthermore, we interviewed the USAID/Iraq cognizant technical officer, project
officer, administrative contracting officer, and controller. We also interviewed
representatives of BNI at their offices and construction sites in Iraq. And lastly,
we interviewed members of the U.S. Army Corps of Engineers who, under an
interagency agreement with USAID, are working in Iraq providing construction
oversight over BNI’s USAID-funded activities in Iraq. Part of this oversight
includes the development and maintenance of a database of all job orders.

We answered the audit objective as unqualified, qualified or adverse using the
following parameters:

   •   The opinion would be unqualified if 90 percent of the issued job orders were
       completed on schedule or are on schedule according to the construction
       timetable.
   •   The opinion would be qualified if less than 90 percent but not less than 70
       percent of job orders were on schedule.
   •   The opinion would be adverse if less than 70 percent of job orders were on
       schedule.

An activity was considered to be on schedule if it was completed, or is on schedule
to be completed, not more than 15 calendar days after the scheduled completion
date.

We selected a sample of 25 projects totaling $590 million, which represented 86
percent of the dollar value for the 72 projects to perform additional testing. We
selected a judgmental sample because of the relatively small number of projects in
the universe. We considered the following two criteria in selecting the sample
projects: 1) high dollar value projects and 2) at least one project from each of the
eight different infrastructure sectors.




                                                                                 18
                                                                                           Appendix II


Management
Comments

                                    U.S. Agency for International Development
                                                  Baghdad, Iraq




ACTION MEMORANDUM
                                                                                     May 24, 2004
To:            Regional Inspector General/Iraq, Cathy Trujillo

From:          USAID/Iraq Mission Director, James E. Stephenson

Subject:       USAID/Iraq Written Comments on Draft Audit Report
               No. E-266-04-00X-P (Audit of USAID/Iraq’s Infrastructure Reconstruction and
               Rehabilitation Program)

USAID/Iraq has reviewed the subject report in detail, and we would like to thank you for the
professional work by your office on the subject audit. We appreciate your efforts to review our
Infrastructure Reconstruction and Rehabilitation Program and your recommendations to improve its
implementation. In a very stressful and sometimes insecure environment, USAID has managed an
infrastructure program that is working on projects worth $1.993 billion in less than one year. Given
these conditions, the Mission is quite pleased that 89% or $595 million out of a total of $686 million of
the projects reviewed during this audit are on time.

We would just like to add that since a large majority of the job orders were for the rehabilitation of
existing facilities with minimal new construction under IRRF I, Mission officials determined that no
potential significant adverse impacts were likely. Consequently, the IEE and subsequent
environmental reviews were deferred to ensure that progress for humanitarian assistance would not be
impeded.

While responses to each individual recommendation are below, USAID/Iraq agrees with the required
actions by making the appropriate management decisions and requests closure of all recommendations
(numbers 1-4) upon issuance of the final audit report given the implementation of the final actions.

Recommendation No. 1: We recommend that USAID/Iraq:

1.1    establish procedures ensuring that Bechtel International, Inc. submit an environmental
review, and where applicable, an environmental supplemental report or an environmental



                                                                                                         19
assessment, with each request for the issuance of a job order, or that USAID/Iraq obtain a formal
written determination exempting the program activities from USAID’s environmental procedures.

Action Taken: USAID and the U.S. Army Corps of Engineers (USACE) have implemented procedures
(see attachments 1a and 1b) to notify the USACE environmental engineer when a draft job order is
requested so that planning for an environmental review can begin before the official job order is
approved. The USACE is also responsible for ensuring that Bechtel International, Inc. submit an
environmental review, and where applicable, an environmental supplemental report or an environmental
assessment, with each request for the issuance of a job order. These procedures also outline appropriate
actions for exceptions to ensure that the environmental supplemental report or assessment is completed
prior to full implementation of the job order.

1.2    obtain an acceptable environmental review for the existing job orders for which one is
required

Action Taken: All remaining required environmental reviews were completed (see attachment 2a and
2b for the Mission’s IEE, and list of all job orders and date environmental review completed.)

Recommendation No. 2: We recommend that USAID/Iraq:

2.1   develop and document procedures to ensure that a job order specific plan is submitted and
approved, for each job order requiring one, prior to the commencement of construction, and

Action Taken: USAID and the U.S. Army Corps of Engineers, in consultation with Bechtel National,
Inc., have put procedures (see attachment 3a) in place to ensure that job order specific plans are
submitted and approved.

2.2     obtain an acceptable job order specific plan for the eight job orders for which a job order
specific plan was not prepared.

Action Taken: All remaining job order specific plans for the eight job orders were completed (see
attachment 3b, JOSP Tracking Worksheet for status.)

Recommendation No. 3: We recommend that USAID/Iraq develop documented procedures which
address the handling of charges in excess of the job order approved amount.

Action Taken: USAID, in collaboration with the U.S. Army Corps of Engineers, has developed
documented procedures (see attachment 4) to address these charges.

Recommendation No. 4: We recommend that USAID/Iraq complete and implement job order
closeout procedures to close out job orders in a timely manner.

Action Taken: USAID/Iraq and the U.S. Army Corps of Engineers have developed documented
procedures (see attachment 5), and all eligible job orders have been closed (see attachment 6 for list of
all eligible job orders and date closeout completed).
Clearance: DD:CMilligan ______________



                                                                                                            20
                                                                                   Appendix III




                            Table of Infrastructure Activities
                   Amounts and Percentages Committed and Expended
                    (As of March 31, 2004, $ in thousands, unaudited)

                           Amount         Percent                      Expenditures
Activity                 Budgeted &       of Total       Amount        as Percent of
                         Committed11      Amount        Expended12     Commitments
                                         Committed
Power                      $ 396,842         38.5       $ 166,864           42.0

Water                         159,825        15.6            24,403         15.3

Seaport                        34,496         3.4            31,468         91.2
Buildings and
                               51,475        5.0             50,215         97.6
Facilities
Surface
                               21,279         2.1             6,565         21.3
Transportation
Airports                       19,364         1.8             8,900         45.9

Telecommunications             38,811        3.8             30,473         78.5

Procurement                    77,039         7.4            34,121         44.3

Overhead13                    122,402        11.8            69,530         56.8

Fee                            74,739        7.3             29,074         38.9
                                             3.3
Unallocated                    33,561                        0               0

Total                      $1,029,833       100%         $ 451,613         43.9%




11
     Per information, dated March 31, 2004, supplied by Bechtel National, Inc. The total agreed to
     USAID/Iraq accounting records.
12
     The amount expended is a total of disbursements and accruals per information supplied by
     Bechtel National, Inc.
13
     Overhead expenses include salaries, fringe benefits, travel, insurance, mobilization costs,
     security, expenses related to camp expenses of employees in Iraq (meals, lodging,
     transportation, etc.).


                                                                                               21
(This page intentionally left blank)




                                       22
                                                                            Appendix IV

                    Status of Infrastructure Activities
                           as of April 15, 2004
                                                                            Scheduled
Project                 Project Description                  Amount       Completion Date
   1.     Dredging Project                                 $ 15,939,001     September 2003
   2.     Boiler Water Chemical Project                         261,075         March 2004
   3.     Generator Project                                   6,743,153         March 2004
   4.     Grain Facility Project                              1,891,845          April 2004
   5.     Bucket Emergency Action Work                        2,000,000           July 2004
          Authorizations
   6.     Transmission Line Repair Parts & Elec Test            400,000           June 2004
          Equipment
   7.     Emergency Bridge Bypass Project                       300,000           June 2003
   8.     BIAP 5MVA Electric Generation                      11,592,279           May 2004
   9.     Umm Qasr Port Security Infrastructure               1,383,963        October 2003
   10.    Umm Qasr Port - Removal of Sunken Wrecks            9,500,076        August 2003
   11.    Power Station Water Treatment                      10,523,075      November 2004
   12.    Hardware Telecom Systems                            1,416,340       February 2004
   13.    Satellite and Wireless Telecom Systems              1,450,984           July 2003
   14.    Schools, Clinics, Selected Government              51,475,750          April 2004
          Buildings
   15.    Water Pumping Station                                 316,507       January 2004
   16.    BIAP Parking & Checkpoint Facility                    703,555           July 2003
   17.    VSAT & VHF System for ATM**                         2,773,560         March 2004
   18.    Bridge Demo                                           366,864        August 2003
   19.    BIAP On Call Repair Terminal C**                    1,000,000     December 2003
   20.    BIAP Preparation for Commercial Operations            973,315           July 2003
   21.    Telecoms Subscriber Service - 12 locations         32,089,000          April 2004
   22.    Telecom Terrestrial Network                         6,722,000          April 2004
   23.    Sewage Treatment Plant Project                      4,447,000        August 2004
   24.    Water Filtration Plant Project                     10,588,000           July 2004
   25.    Water Supply Maintenance Project                    5,134,000           July 2004
   26.    Sewage Treatment Plant Restoration                  4,879,000        August 2004
   27.    Water Treatment Plant                               5,493,000        August 2004
   28.    Sewage Treatment Plant Restoration                  8,074,000     November 2004
   29.    Highway Bridge                                      1,347,000         March 2004
   30.    Bridge Demo & Reconstruct Project                   1,647,000         March 2004
   31.    Iraqi Republican Railway Project **                11,783,000     September 2004
   32.    Canal Cleanup Project                              10,987,000           July 2004
   33.    Sewage Treatment Plant Project                      4,768,000           July 2004
   34.    Potable Water Pump Station Restoration Project     12,406,400           July 2004
   35.    Power Plant Rehab Projects**                       55,540,929      November 2004
   36.    Bridge Demolition and Reconstruction Project        4,025,000           May 2004
   37.    Umm Qasr New Port Administration Building             550,837       February 2004
   38.    BSR Preparation for Commercial Operations             838,500        August 2003
   39.    Evaluation and Reinstatement of Existing Port       1,137,609           June 2004
          Owned Dredges



                                                                                              23
                                                                          Scheduled
Project                 Project Description               Amount        Completion Date
   40.     Sewage Treatment Plant Project                  9,189,000         March 2004
   41.     Firewater System Repair Project                   437,000           June 2004
   42.     Water Treatment Plant Project**                15,174,000            July 2004
   43.     Repair Umm Qasr substations                       724,525           May 2004
   44.     A/C for Power Generating                        2,202,850            July 2004
   45.     Baghdad Area Emergency Parts & Material for     1,405,000           July 2004
           Power Gen Plants
   46.     Umm Qasr Port Repair Toilet Blocks                 204,320         May 2004
   47.     Perimeter Fencing Project                          820,000        March 2004
   48.     Brackish Water System Project                      139,256     December 2003
   49.     Power Plant Project                             21,942,500       August 2004
   50.     Heat Exchange Project for Generator Station      2,025,000     November 2004
   51.     Sewage Treatment Plant Restoration Project       7,487,000     December 2004
   52.     Sub-station Restoration Project**                  513,540          July 2004
   53.     Crude Oil Treatment Systems Project              1,257,000        March 2004
   54.     Air Traffic Control Center**                       564,600           July 2004
   55.     BSR Land Based Radio System                        723,878          May 2004
   56.     Substation Combustion Turbines                 148,408,000       August 2004
   57.     UNDP Program for Electrical Power System         1,261,500      February 2004
   58.     Generation Support Program                       9,593,000          July 2004
   59.     Outage Support Program                           4,560,300          July 2004
   60.     BIA Restoration of East Fire Station               164,208      February 2004
   61.     Umm Qasr Custom House and Passenger                656,500        March 2004
           Terminal Refurbishment
   62.     BSR Generators for HVAC                            978,000        August 2004
   63.     Water and Sewer Remedial Works Project**         4,000,000      November 2004
   64.     Technical Services to Support New Railroad       1,811,622          July 2004
           Track Construction
   65.     Restoration of BSR Sewage Treatment Plant          985,000          April 2004
   66.     PM Oversight for CPA Funded Baghdad Waste        5,979,600      December 2004
           Water Program
   67.     Water Treatment Plant                            1,337,000        March 2004
   68.     400 KV transmission line                        12,126,000          June 2004
   69.     South Baghdad generating plant                 107,000,000       October 2004
   70.     Waste Water Treatment Plant                     11,814,000     September 2004
   71.     Standby Generator Project                        1,932,000          April 2004
   72.     Unified Water Treatment Plant Project            5,000,000     November 2004
           Total                                         $685,884,816
** Projects completed behind schedule




                                                                                            24
